HHS/OIG - Audit, "Review of New Mexico's Human Services Department
Systems and Procedures for Recovering and Refunding Overpayments Made Under the
Aid to Families with Dependent Children Program," (A-06-02-00030)
Department
of Health and Human Services
"Review of New Mexico's Human Services Department Systems and Procedures
for Recovering and Refunding Overpayments Made Under the Aid to Families with
Dependent Children Program," (A-06-02-00030)
September 13, 2002
Complete
Text of Report is available in PDF format (492 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether New Mexico has systems
and procedures to:  (1) properly identify, collect and report Aid to Families
with Dependent Children (AFDC) overpayment recoveries, and (2) refund the correct
amount of AFDC overpayment recoveries to the Federal Government.  State
agencies are required to pursue AFDC overpayments made prior to October 1, 1996
and make appropriate refunds to the Federal Government.  Collections of
overpayments occurring after that date are to be used to offset Temporary Assistance
to Needy Families expenditures in the year collected.  Generally, the state
has systems that identify, collect and report overpayment recoveries.
However, these systems did not separately identify  recoveries of AFDC
overpayments.  As a result, the state did not refund to the Federal Government
its proportionate share of those collections.  We recommended recovery
of approximately $3.4 million.  State officials concurred with our recommendations.